OFFICE OF INSPECTOR GENERAL

Audit of USAID/Haiti’s
Implementation of the
President’s Emergency Plan for
HIV/AIDS Relief
AUDIT REPORT NO. 1-521-05-010-P
JULY 29, 2005




SAN SALVADOR, EL SALVADOR
            Office of Inspector General



July 29, 2005

MEMORANDUM

TO:             USAID/Haiti Director, Erna Kerst

FROM:           Acting Regional Inspector General/San Salvador, Darren Roman “/s/“

SUBJECT:        Audit of USAID/Haiti’s Implementation of the President’s Emergency Plan
                for HIV/AIDS Relief (Report No. 1-521-05-010-P)

This memorandum transmits our final report on the subject audit. In finalizing this
report, we considered your comments on our draft report and have included your
response in Appendix II.

The report contains seven recommendations intended to improve the implementation of
the Emergency Plan. Based on your comments and the documentation provided,
management decisions have been reached on the first six recommendations. However,
no management decision has been reached concerning the last recommendation. In
this regard, we request that you provide us written notice, within 30 days, of any
additional information related to any action planned or taken to implement this
recommendation. Determination of final action will be made by the Bureau for
Management’s Office of Management Planning and Innovation (M/MPI/MIC).

Once again, I want to express my appreciation for the cooperation and courtesy
extended to my staff during the audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 2

Audit Findings ................................................................................................................. 3

     How has USAID/Haiti participated in the President’s Emergency
     Plan for AIDS Relief? .................................................................................................. 3

     Did USAID/Haiti activities progress as expected towards planned
     outputs in their grants, cooperative agreements and contracts? ................................ 5

          No Drug Management Tracking System ............................................................... 8

          Shortage of Antiretroviral Drugs ............................................................................ 9

          No Clearly Defined Outputs in Work Plans ......................................................... 10

          Progress Reports Inadequate ............................................................................. 11

          Inadequate Monitoring and Evaluation System................................................... 12

     Are USAID/Haiti's HIV/AIDS activities contributing to the overall
     U.S. Government's Emergency Plan targets?........................................................... 14

     Other Matters ............................................................................................................ 14

          Pressure for Immediate Results .......................................................................... 14

          Lack of an Implementation Plan .......................................................................... 15

          Improved Fund Accountability ............................................................................. 16

          Sustainability ....................................................................................................... 17

          Contract Ceilings ................................................................................................. 18

          Staffing and Transportation ................................................................................. 18

          Marking................................................................................................................ 19

          Emergency Plan Fiscal Year ............................................................................... 20

          Indicator Overload ............................................................................................... 20
Evaluation of Management Comments ....................................................................... 21

Appendix I – Scope and Methodology ........................................................................ 22

Appendix II – Management Comments ....................................................................... 24
SUMMARY OF RESULTS
As part of a worldwide audit, the Regional Inspector General/San Salvador performed
this audit to answer the following questions:

•   How has USAID/Haiti participated in the President’s Emergency Plan for AIDS
    Relief?

•   Did USAID/Haiti activities progress as expected towards planned outputs in their
    grants, cooperative agreements and contracts?

•   Are USAID/Haiti's HIV/AIDS activities contributing to the overall U.S. Government's
    Emergency Plan targets?

We concluded that USAID/Haiti was heavily involved in implementing the President’s
Emergency Plan for AIDS Relief (Emergency Plan) in Haiti for HIV/AIDS prevention and
care, as well as playing a major supporting role for HIV/AIDS treatment; its partners
were progressing towards meeting planned outputs in their contracts and agreements for
some activities but outputs were not established to measure progress of other activities;
and USAID/Haiti’s activities contributed to the overall U.S. Government’s Emergency
Plan targets. (See pages 3, 5, and 14.)

This report contains recommendations that (1) USAID/Haiti make a determination
whether to implement the drug management software provided by Rational
Pharmaceutical Plus, and if so, set a target date for the implementation of the software
and a plan for user support; (2) output goals and performance dates for completion be
included in work plans; (3) a progress report template be developed and provided to
partner organizations; (4) a monitoring and evaluation plan be developed; (5) new
antiretroviral therapy centers not be opened unless there are adequate drugs and other
supplies to treat more than a limited number of patients; (6) USAID/Haiti recommend to
the Emergency Plan team that it develop an implementation plan; and (7) USAID/Haiti
coordinate with Single Act auditors, in order to determine whether the audit coverage is
sufficient and if not, arrange for additional coverage and conduct financial reviews for
these U.S.-based organizations implementing the Emergency Plan activities. (See
pages 9 - 17.)




                                                                                       1
BACKGROUND
The President’s Emergency Plan for AIDS Relief (Emergency Plan) is a $15 billion, five-
year program that provides $9 billion in new funding to speed up prevention, treatment,
and care services in 15 focus countries, one of which is Haiti. The Emergency Plan also
allocates $5 billion over five years to bilateral programs in more than 100 countries and
                                                     1
increases the U.S. pledge to the Global Fund by $1 billion over five years. The
worldwide goal over five years is to provide treatment to 2 million HIV-infected people,
prevent 7 million HIV infections, and provide care to 10 million people affected by
HIV/AIDS, including patients and orphans. In Haiti, the goal is to provide treatment to
25,000 HIV-infected people, prevent 122,307 HIV infections, and provide quality care
and support services to 125,000 persons who are infected and/or affected by HIV/AIDS.

The strategy to achieve the Emergency Plan’s ambitious goals focuses on improving
health care system capacity to deliver effective and expanded HIV/AIDS prevention,
treatment and care services. The Emergency Plan is directed by the Department of
State’s Global AIDS Coordinator, and it is implemented collaboratively by country teams.
In Haiti, the country team is made up of staff from USAID, the Department of State, the
Centers for Disease Control and Prevention, the Department of Defense, and the Peace
Corps. It is important to mention that the working environment in Haiti in 2004 and 2005
was characterized by chronic instability, extreme insecurity, violence, civil unrest, limited
travel within the country and a mandatory evacuation of USG personnel. This had a
major impact on the implementation of the Emergency Plan. The USAID mission
demonstrated considerable agility in coping with Haiti’s chaotic and changing
circumstances.

AUDIT OBJECTIVES
This audit was part of a worldwide audit of the President’s Emergency Plan for AIDS
Relief. The audit objectives were:

•   How has USAID/Haiti participated in the President’s Emergency Plan for AIDS
    Relief?

•   Did USAID/Haiti activities progress as expected towards planned outputs in their
    grants, cooperative agreements and contracts?

•   Are USAID/Haiti's HIV/AIDS activities contributing to the overall U.S. Government's
    Emergency Plan targets?




1 The Global Fund is a partnership among governments, civil society, the private sector and
affected communities that raises money to fight AIDS, tuberculosis and malaria.

                                                                                           2
AUDIT FINDINGS
How has USAID/Haiti participated in the President’s Emergency
Plan for AIDS Relief?
USAID/Haiti was heavily involved implementing the President’s Emergency Plan for
AIDS Relief (Emergency Plan). In the U.S. Government’s Country Operational Plan for
fiscal year 2004 for Haiti, USAID/Haiti was the lead agency for awards to nine
organizations, for a total of $11.9 million out of a $22 million program. Haiti’s program
was based on four main components:

1.   Improved quality of existing services to maintain adherence by continuing clients.
2.   Increased number of service delivery sites to reach new clients.
3.   Targeted prevention and behavior change interventions.
4.   Strengthened program management and coordination to increase efficiency.

There were three broad areas that were addressed in the Emergency Plan: prevention,
care, and treatment. USAID/Haiti’s activities are described below.

Prevention
Prevention activities were divided into five broad categories:

•    Prevention of mother-to-child transmission
•    Abstinence/be faithful
•    Blood safety
•    Safe injections and prevention of other medical transmission
•    Other prevention initiatives

USAID/Haiti had a major role in the first, second, and fifth activities

Prevention of mother-to-child transmission (PMTCT) – It was estimated that 11,800
HIV-infected Haitian women gave birth in 2000 and that there were 4,000 – 6,200 infants
with HIV infections. The PMTCT activities sought to prevent transmission of HIV/AIDS
from mothers to infants. PMTCT activities included supporting operating costs for
PMTCT services and counseling and support for safe infant feeding practices.
USAID/Haiti focused on strengthening community mobilization to recruit more pregnant
women for PMTCT services and to ensure improved post-natal follow-up. Other
activities included renovation of facilities where PMTCT services were provided, training
of health professionals, a media campaign and development of norms and standards.

USAID/Haiti contractor Management Sciences for Health (Management Sciences)
provided an integrated package of services in one location, including childhood
vaccinations, treatment for diarrhea, screening for sexually transmitted infections, and
screening for tuberculosis. This integrated approach was designed to encourage people
to come to the centers without fear that other people would know that they had
HIV/AIDS. Management Sciences also tried to co-locate the centers near food programs


                                                                                          3
because if there were a cluster of services in one area, more people would come to the
clinic for voluntary counseling and testing and PMTCT services.

Abstinence/be faithful – Abstinence and be faithful activities were behavior change
interventions designed to prevent new infections.         Abstinence and faithfulness
messages, along with training to empower responsible life decisions, were directed at
youth, the largest segment of Haiti’s population. Activities included training of scout
leaders, labor union representatives, religious leaders, and radio disc jockeys in
HIV/AIDS prevention messages and promotion of positive youth behavior as well as
training staff in partner organizations in behavior change communications focused on
youth.

Other prevention – Other prevention initiatives were directed at high risk clients,
particularly commercial sex workers, truck drivers and at-risk youth, to discourage risky
behavior as well as to encourage the consistent use of condoms. USAID/Haiti’s other
prevention interventions consisted of a behavior change campaign promoting the use of
condoms among high risk groups.

Care
Care activities were divided into three categories:

•   Voluntary counseling and testing
•   Palliative care
•   Care for orphans and vulnerable children

Voluntary counseling and testing (VCT) – VCT services were provided by 31 clinics
and hospitals (hereinafter jointly referred to as clinics) in a network linked to
Management Sciences. Existing centers were strengthened and supported under the
Emergency Plan. In addition to providing services at clinics, Management Sciences
trained community health agents to promote the use of VCT/PMTCT services, to provide
community-based information and follow-up after testing, and to encourage referrals.
The IMPACT project managed by Family Health International (Family Health) provided
technical assistance to update norms and standards, developed and disseminated a
VCT trainer guide, and counselor manual, published a manual on the care and treatment
of people with HIV/AIDS as well as an operational handbook to support the conceptual
model of VCT/PMTCT service integration.

Palliative care – Palliative care included all non-antiretroviral care and treatment,
outside of clinic-based care, provided to infected individuals, from the moment of
receiving VCT results through end-of-life care. Palliative care was aimed at optimizing
the quality of life of HIV-infected persons and their families. Assistance also included
life-extending therapy; training of caregivers and family members on health-related
issues, HIV awareness, and prevention; school fees; food; and home visits by nurses
and social workers.

Care for orphans and vulnerable children – Activities assist community support
groups for people living with AIDS as well as orphans and vulnerable children. There
were an estimated 370,000 orphans in Haiti in 2004. Funds were used to prepare
guidelines and to provide technical assistance and guidance to the Ministry of Health to

                                                                                       4
develop legislation to protect the rights of HIV-affected orphans and vulnerable children
as well as materials for peer education.

Treatment
Clinics in the network linked to Management Sciences provided antiretroviral treatment
to some HIV/AIDS patients, but most of USAID/Haiti’s efforts in the treatment area were
directed to the management, purchase, and distribution of antiretroviral drugs.
USAID/Haiti contractor Rational Pharmaceutical Management Plus (Rational
Pharmaceutical)2 provided logistical support as well as procuring and distributing
antiretroviral drugs. Activities included developing and implementing a software program
to monitor and track antiretroviral usage and stock levels, warehousing, and delivery of
antiretroviral drugs to clinical sites.

Did USAID/Haiti activities progress as expected towards planned
outputs in their grants, cooperative agreements and contracts?
Of the 39 activities reviewed, 15 had met or exceeded planned outputs, 7 had not met
planned outputs, and 17 achieved output levels that could not be evaluated for progress
because planned outputs were not established. The outputs are discussed by work area
in the sections that follow.

Prevention
Prevention of mother-to-child transmission (PMTCT) – Most of the prevention
activities were implemented by Management Sciences, which had established a network
of 36 clinics under an existing program with USAID/Haiti. Management Sciences
exceeded its planned output of supporting 12 PMTCT sites and supported 31
VCT/PMTCT sites in its network of health centers. Likewise, Management Sciences
exceeded its goal of providing services to 5,300 pregnant women; 12,661 pregnant
women received services. There were 893 HIV positive pregnant women, and 507 were
enrolled in PMTCT.

Management Sciences reported that it trained 1,692 traditional birth attendants in
PMTCT principles, exceeding its goal of 1,500; it developed management guidelines and
procedures for PMTCT and voluntary counseling and testing as planned; and it trained
593 institution-based network providers of PMTCT services, exceeding its goal of 500.

Another USAID/Haiti partner, Linkages/Academy for Educational Development
(Linkages), provided training regarding the options HIV positive mothers have regarding
breast feeding or using formula. The goal in the work plan was to provide this training to
health providers for 27 PMTCT sites, and Linkages exceeded this goal by training 85
health professionals for 30 PMTCT clinics as well as providing HIV awareness and infant
feeding training to another 66 participants from various non-governmental organizations
and the Ministry of Health.




2   Rational Pharmaceutical Management Plus is a program of Management Sciences for Health.

                                                                                              5
              Photograph of an auditor from RIG/San Salvador observing a
              pregnant woman registering at a PMTCT clinic in Haiti, taken on
              April 26, 2005.

USAID/Haiti partner Family Health did renovation work at 15 PMTCT sites, exceeding
the work plan output of 14. It met its goal of training 160 health professionals and
counselors at PMTCT sites.

The Johns Hopkins University Health Communication Program (Johns Hopkins)
designed and launched, as planned, a nationwide media campaign promoting
PMTCT/VCT services, risk awareness and the importance of testing. An estimated 3.8
million people were reached through printed materials and national and community-level
radio broadcasts. However, their workplan did not set a planned output for the number
of people to be reached by this campaign. They also conducted training for over 400
individuals on community mobilization, abstinence and faithfulness, which included
scouts and journalists and exceeded their planned output of training 100 people.

Abstinence/be faithful – Management Sciences reported reaching 127,500 youths in
its abstinence/be faithful campaigns, more than double the planned level of 60,000. It
also achieved its goal of reaching at least 1,500 people with behavior change messages
through peer counselors. Johns Hopkins developed two media campaigns that reached
115,000 adolescents and young people. Johns Hopkins also conducted a community-
outreach program on abstinence and faithfulness reaching 15,000 youths. However, the
workplan did not include specific planned outputs for these activities. Family Health
reached over 86,000 individuals through abstinence/be faithful messages and more than
62,000 through abstinence promotion. The work plan of Family Health did not have
quantifiable planned outputs for these activities.

Population Services International through the AIDSMARK Project (Population Services)
reached almost 3,000 girls through a community outreach program promoting
abstinence and faithfulness exceeding the goal of 2,000. They also trained 42 youth

                                                                                    6
leaders and peer educators in how to negotiate protective behavior. The workplan did
not have a quantifiable planned output for the number of individuals to be trained.

Other prevention – Population Services worked with truckers and commercial sex
workers to discourage risky behavior. They reached an estimated 3.2 million people
through a mass media campaign promoting condom use. Family Health also reached
more than 25,000 people with other prevention strategies for high risk groups. John
Hopkins conducted two media campaigns promoting other preventions strategies that
reached an estimated 1.7 million people. They also provided training to almost 500
individuals in other prevention strategies. However, the work plans of these three
partners did not contain quantifiable planned outputs for these activities.

Care
Voluntary counseling and testing (VCT) – VCT services were provided by 31 of the
clinics that work with Management Sciences. Of these 31 VCT sites, five began
providing VCT services as planned in the year ending March 2005. Two planned VCT
sites in non-medical settings had not been opened. Through March 2005, over 5,000
persons had received VCT services at the clinics, exceeding the planned output of 3,000
clients. As planned, Population Services developed a mini-film for VCT promotion. They
provided VCT services to almost 5,000 people but did not have a planned output for this
activity.

Palliative care – USAID/Haiti planned to provide community outreach palliative care
through Management Sciences to 15,000 persons infected with HIV/AIDS, but it only
reported reaching 8,000 people. However, this program was on-going. Management
Sciences stated that not meeting the planned output was due to time needed to develop
prerequisites and standards for community-based care, development of training
curriculum, and translation of materials to Creole. This was confirmed by USAID/Haiti
who stated that Management Sciences had to wait for the approval of the protocol by the
Ministry of Health and manage pressure from the Ministry to use a particular contractor.
We are not making a recommendation at this time based on Management Science’s and
USAID/Haiti’s explanations that the delay was due to time required to develop the
curriculum, prepare the materials and get the Ministry of Health on board.

USAID/Haiti and Management Sciences also planned to provide more extensive, home-
based care and life extending therapy kits to 7,500 people. This planned output was not
met. At the time of the audit, Management Sciences stated that it was preparing to
distribute 2,000 kits to HIV-positive persons and their families. Management Sciences
stated that a delay in the procurement of the kits by Rational Pharmaceutical contributed
to this missed planned output.

Population Services was to develop appropriate messages promoting positive living and
compassionate care of persons living with HIV/AIDS. A total of 4.8 million people were to
be reached by these messages. However, this component of the Haiti Emergency Plan
was not performed because funding was not available. Population Services did not
submit their workplan and budget until December 2004 because no funding mechanism
had been identified with USAID. The USAID agreement was signed in January 2005 by
USAID/Haiti and in February 2005 by the CTO in Washington. Consequently,
Population Services has until September 2005 to complete planned project activities.


                                                                                       7
John Hopkins produced and distributed 1,000 diaries illustrated with the art works
created by persons living with HIV/AIDS. They also provided technical assistance to
revise the VCT norms and standards. Family Health strengthened 12 support groups
and reached almost 150 persons living with the disease by providing training and
guidance for organizational development to non-governmental organizations as well as
psychosocial support to people with HIV/AIDS. Also, 530 Christian leaders participated
in a forum for mobilization and advocacy relating to support programs. No planned
outputs were defined for these activities in their work plans.

Care for orphans and vulnerable children – USAID/Haiti contractor Futures Group
through the POLICY II Project (POLICY) along with Johns Hopkins developed guidelines
for the care of orphans and vulnerable children (OVC), as planned. However, POLICY
did not conduct an analysis of OVCs because the 2003 census data was not yet
available.

Family Health provided care for orphans and vulnerable children through two programs.
One program benefited more than 150 families affected by HIV-positive members that
received a comprehensive package of care as well as being served by members of the
community that were trained in home care. Family Health also had a program for more
than 1,000 street children on prevention and care activities as well as risk reduction for
HIV/AIDS. Family Health had no planned outputs for these activities in their workplan.

Treatment
Drug management software was not implemented in all centers as planned. As of the
date of fieldwork, the software had only been installed at four sites. Likewise,
USAID/Haiti did not provide antiretroviral therapy to as many patients as planned,
treating 258 patients when the planned number of patients was 400 patients. During the
period, Management Sciences tested more than 55,000 persons for HIV/AIDS of which
almost 4,000 tested positive.

No Drug Management Tracking System
USAID/Haiti’s contractor Rational Pharmaceutical procured, warehoused, and delivered
antiretroviral drugs to clinical sites. It also developed and installed a software program
to monitor and track antiretroviral drug usage and stock levels. As set forth in the
Country Operational Plan, USAID/Haiti planned for the software program to be
implemented throughout Haiti, but this was not achieved. Rational Pharmaceutical
stated that USAID/Haiti asked it to go slow on the rollout of the software program, and
USAID/Haiti stated that it was considering an alternative software program. Additionally,
Rational Pharmaceutical had a limited number of staff in Haiti to implement the system in
2004 and to monitor the drug supplies in the field. According to its chief of party, only two
staff were in Haiti in 2004. As a result, the software had been installed in only four sites
in 2005. At one site visited where the software had been installed, the software was not
generating accurate drug counts or accurate numbers of patients under treatment. The
person there had been trained but did not know how to fix the problem and decided to
continue maintaining the manual system.




                                                                                           8
While software installation activities were delayed, accurate inventory counts of drugs
were not always available. Rational Pharmaceutical was unable to provide an accurate
inventory of three antiretroviral drugs at two antiretroviral therapy centers opened under
the Emergency Plan. The lack of an accurate inventory made it difficult for the
Emergency Plan team to determine the amount of antiretroviral drugs to be ordered.

As a result of not implementing a software program to track drug usage and stock levels
and not implementing an accurate interim tracking system, it was difficult for the
Emergency Plan team to determine the amount of antiretroviral drugs to be ordered and
to be able to supply all of the patients with the needed drugs. Due to the lack of a
proper drug management system being in place, there was increased risk that critical
drugs and commodities would not be provided in a timely manner.

   Recommendation No. 1:           We recommend that USAID/Haiti (a) make a
   determination as to whether or not to implement the drug management software
   provided by Rational Pharmaceutical Management Plus, and (b) if it decides to
   implement the software, set a schedule for the implementing the software and a
   plan for providing support to the users of the software.

Shortage of Antiretroviral Drugs
Management Sciences opened four antiretroviral therapy centers as planned, and the
centers were treating 105 patients. The original planned output was to provide 600
patients with antiretroviral therapy, but this planned output was lowered to 250 due to
drug shortage and the security situation in Haiti. Antiretroviral drugs were in short supply
because USAID/Haiti had to wait for a release of funds before it could order additional
antiretroviral drugs. Due to the shortage, the Emergency Plan team instructed
antiretroviral therapy centers to stop adding patients.

In November 2004, the Haiti Emergency Plan team requested that the Department of
State’s Global AIDS Coordinator disburse its FY 2005 Emergency Plan funds early in
order to enable the Emergency Plan team to order antiretroviral drugs in time to receive
them in March in order to avoid drug shortages. The Global AIDS Coordinator approved
this request and submitted a Congressional Notification that included these funds. The
Congressional Notification was approved on December 30, 2004; however, the funds
were not available to USAID/Haiti until March 25, 2005. This delay was due to
discussions between USAID/Washington and the Global AIDS Coordinator regarding the
wording in the agreement transferring the funds from the Global AIDS Coordinator to
USAID. The language under discussion was the wording of the clauses regarding
terrorism and trafficking. The wording issue was resolved, and a Memorandum of
Agreement between USAID/Washington and the Global AIDS Coordinator was signed
on February 28, 2005. It was then another month before the funds were made available
to USAID/Haiti. As a result, funds expected by USAID/Haiti in January 2005 were not
available until late March, and USAID/Haiti was not able to order antiretroviral drugs until
April.

It normally takes three to four months for antiretroviral drugs to be delivered after they
are ordered. Stocks of certain antiretroviral drugs were at a crisis level in April. The
information available to USAID/Haiti in mid-April indicated that two drugs were out of
stock, and that three more were expected to be out of stock by the end of April based on


                                                                                          9
patient loads and existing stock information. Some deliveries to Haiti’s antiretroviral
therapy centers were anticipated in April, but it was still estimated that four antiretroviral
drugs would be out of stock. USAID/Haiti was trying to obtain the antiretroviral drugs
immediately through available sources including local suppliers, but it was not certain
that it would be possible to arrange immediate delivery for all drugs that were at a
critically low level. USAID/Haiti worked with the Global Fund, the only other major
supplier of antiretroviral drugs to Haiti, to fill some of the gaps, but the Global Fund also
suffered a funding delay the first few months of 2005. The Global AIDS Coordinator and
the CDC worked with the Haiti Emergency Plan team to address this crisis. Subsequent
to the end of field work, we were informed that the Emergency Plan team was able to
arrange the delivery of a sufficient supply of the drugs in time to avert the crisis. This
was a unique situation with the language on the waivers being negotiated. Therefore,
we are not making a related recommendation.

Some Outputs in Work Plans Not Defined
As noted under this objective in the sections on prevention and care, progress on 17 of
the activities reviewed could not be evaluated because work plans did not contain
planned output levels. Further, a review of USAID/Haiti’s work plans showed that the
completion dates for tasks were not always defined. The activity indicators in work plans
should clearly define planned outputs. Automated Directives System (ADS) 202.3.6
states that in order to monitor the quality and timeliness of outputs produced by
implementing partners, outputs should be specifically described. The guidance also
states that outputs are critical to achieving results. ADS 200.3.1.2 states that
performance outputs need to be established in order to assess progress. For example,
the work plans for Management Sciences, Health Communication Program and Rational
Pharmaceutical did not specify planned output dates for any of the planned activities.
The lack of dates in work plans is attributable to a heavy workload as well as pressure
for results. As a result, USAID/Haiti was without a valuable management tool to guide
its partners to do the work in the desired timeframe. USAID/Haiti wanted Rational
Pharmaceutical to have a system in August 2004 to track drug usage and stock levels,
but there was not a deadline in the work plan. It should also be noted that it is not
possible to measure the success of a program if there are no planned outputs in the
work plan.

   Recommendation No. 2: We recommend that USAID/Haiti include clearly
   defined planned outputs, with completion dates, for all activities in the partners’
   work plans.




                                                                                           10
Progress Reports Need Improvement
Summary: Partner progress reports submitted to USAID/Haiti did not always include
accurate and useful information describing progress achieved during the reporting
period or about current and cumulative progress. The majority of the reports lacked
clearly defined targets and sufficient information with which to validate the partner’s
reported achievements. As stated in ADS 202.3.6.1 assessing performance, refers to
whether the outputs produced by the contractor or grantee are of acceptable quality.
Shortcomings in the progress reports were due to insufficiently trained technical staff,
written agreements that did not sufficiently defined the responsibilities of partner’s
organizations, and inadequate project monitoring and evaluation system.
Consequently, USAID/Haiti could not always determine if projects were progressing
towards objectives.

ADS 200.3.2.1 states that intended results should be explicit, and interactions should be
organized to achieve results as effectively as possible. ADS 202.3.6.1 states that
assessing performance refers to whether the outputs produced by the contractor or
grantee are of acceptable quality and that the cognizant technical officer is responsible
for reviewing and approving performance reports. Progress reports submitted by
USAID/Haiti partners did not always include accurate and useful information about
current and cumulative progress. Some partners were confused by the formats of the
reports, did not understand some of the indicators, and did not know what information
had to be reported. Also, management needs accurate reports to support decision-
making.

A review of progress reports submitted by the various partners revealed that many of the
progress reports contained data that was not accurate, and did not measure progress
towards achieving the Plan’s objectives. Also, the information in progress reports was
sometimes too vague to be of any utility in measuring progress made toward achieving
program objectives. The reports also evidenced examples of double-counting, wrongly
reporting results from prior periods. For example, a partner reported training 69 people
on abstinence and being faithful. The training was conducted jointly with another partner
who also reported the same achievement. There was no mention in progress reports of
the dates or venues for this training. Consequently, the information could not be
reconciled or verified. Neither of the two partners had supporting documentation for this
training that was reportedly conducted by a third organization. Both organizations said
that there was a lot of pressure to report results.

For another partner as a result of the shortcomings in the annual and quarterly progress
reports, we could not determine if all departments received strategic-information training.
The partner’s annual progress report stated that some training in certain departments
had been conducted but did not include department-specific results. Consequently, we
could not determine if all departments received training or validate the partner’s reported
achievements.

From another partner, we received two different progress reports for the same period,
which included different results associated with the same indicators. For example, one
progress report indicated reaching 95,000 youths through a mass media campaign while
another report for the same period reported that number as 115,000. We also found that



                                                                                        11
the semi-annual progress report ending March 31, 2005 contained results from prior
periods.

We reviewed progress reports from all the partners, and none contained cumulative
figures that would have permitted us to measure progress towards reaching the plan’s
objectives. Also, the majority of the reports had no clearly defined targets or sufficient
information with which to validate the partner’s reported achievements.

This was the result of a lack of sufficiently trained technical staff, written agreements that
did not sufficiently define the responsibilities of partner organizations, reporting formats
that did not measure performance towards achieving the planned outputs, and a lack of
monitoring and evaluation system. Consequently, USAID/Haiti could not always
determine if projects were progressing towards objectives. Further, because the partner
organizations did not always have accurate records supporting their progress reports,
reported results were sometimes difficult to verify. Without accurate and reliable data,
sound decisions cannot be made.

   Recommendation No. 3: We recommend that USAID/Haiti (a) develop and
   disseminate to partner organizations a table or annex template that facilitates
   performance reporting and includes clearly-defined progress indicators; (b)
   provide partner organizations with training such that the partners are able to
   accurately report on their performance, and (c) recommend to the Emergency
   Plan team that this be done for all Emergency Plan partner organizations.

Monitoring and Evaluation System
Needs Improvement
Summary: USAID/Haiti did not implement a system that effectively monitored
Emergency Plan activities and achievements. ADS 203.3.2 states that operating units
must establish systematic process of monitoring the results of activities, collecting and
analyzing performance information to track progress towards planned results. This
was due to civil unrest, travel restrictions and unscheduled office closings which
adversely impacted the ability of USAID/Haiti to monitor Emergency Plan activities.
Consequently, the Mission could not measure the efficiency and effectiveness of the
program, and apply measurements to improving program implementation.

ADS 203.3.2 states that operating units must establish a systematic process for
monitoring the results of activities; collecting and analyzing performance information to
track progress towards planned results; using performance information to influence
program decision making; and communicating results achieved or not attained.
USAID/Haiti cognizant technical officers are responsible for monitoring the progress of
activities.

USAID/Haiti did not implement an effective system to monitor its Emergency Plan
activities and record program achievements. A monitoring and evaluation plan was not
developed to determine which activities should be monitored and how the activities
would be monitored, including the number and frequency of site visits to be performed
by USAID/Haiti. Available records showed that during FY 2004 USAID/Haiti only made
a few site visits, and those site visits were not documented. We were informed that
some Emergency Plan site visits focused only on the area of the person or organization

                                                                                           12
conducting the site visits. Site visits should include a review all Emergency Plan
activities at a site. While everyone was not an expert in every area, there are basic
review procedures that could have been performed by persons not trained in a specific
area. Well-planned, documented visits would have assisted USAID/Haiti in identifying
implementation problems and taking remedial action. For example, the data reported in
terms of individuals tested for HIV/AIDS for two sites were not accurate, and in one site,
the individuals tested from the satellite clinics were not reported. These report
deficiencies could have been detected and corrected with proper monitoring visits.

Civil unrest forced the evacuation of the all U.S. direct hire employees and U.S. private
service contractors (collectively referred to as employees) in February 2004. Some
employees were permitted to return to Haiti after six weeks, but some employees did not
return for four months.3 Even when in Haiti, travel restrictions and unscheduled office
closings adversely impacted the ability of USAID/Haiti to monitor Emergency Plan
activities. This resulted in the program having abrupt starts and stops, programming
uncertainties, and a disruption in normal working hours. Likewise, the lack of an
implementation plan for Emergency Plan activities prevented the Mission from
establishing a monitoring plan to ensure that partners were progressing as expected to
achieve intended results.

Without a monitoring and evaluation plan with which USAID/Haiti could monitor program
implementation data received from the partners on a regular basis, the Mission could not
measure the efficiency and effectiveness of the program and improve implementation,
and it could not ensure that the partner progress reports were credible and useful. As a
result, USAID/Haiti could not reliably determine if the Emergency Plan program was
meeting its objectives or if part of the program would become sustainable.

A monitoring and evaluation plan should include well-defined performance indicators
(including baselines and targets), and it should assign responsibility to personnel to
periodically assess the quality of data reported by the partners. USAID/Haiti should
verify and validate performance data to ensure that the information is accurate by (1)
reviewing partner reports; (2) making site visits and conducting spot checks; and (3)
holding discussions with partners on the importance of quality data. The monitoring plan
should ensure that progress reports submitted by the partners are complete, accurate,
and consistent.

    Recommendation No. 4: We recommend that USAID/Haiti (a) develop a
    monitoring and evaluation plan that includes evaluating each partner’s progress
    towards meeting Emergency Plan objectives such that accurate and complete
    program implementation information is ensured and to facilitate timely
    interventions to improve program results, and (b) recommend to the Emergency
    Plan team that it develop a similar monitoring and evaluation plan for all
    Emergency Plan partners.




3CDC/Haiti members of the Emergency Plan team were also covered by the evacuation order,
and they did not all return to Haiti for a few months.

                                                                                           13
Are USAID/Haiti's HIV/AIDS activities contributing to the overall
U.S. Government's Emergency Plan targets?
USAID/Haiti’s HIV/AIDS activities contributed to the overall U.S. Government’s
Emergency Plan targets. However, since results are tracked at the country team level
and not at the implementing agency level, isolating USAID/Haiti's contribution to the U.S
Government’s Emergency Plan achievements to-date at an individual activity level was
not practical.

As of March 2005, 15 antiretroviral sites had been established by CDC and USAID/Haiti,
and more than 3,900 patients including 212 pregnant women had received antiretroviral
therapy services. The target was 4,000 patients treated by June 2005. Despite a drug
supply crisis, the target was reached. Through a network of VCT/PMTCT services,
135,274 persons and 54,743 pregnant women have received the HIV tests. More than
2,000 heath workers had received training in PMTCT related services. Almost 35,000
people received palliative care. More than 900 people were trained to provide palliative
care and over almost 1,500 trained on counseling and testing. Behavior change
communications, including abstinence/be faithful messages through community outreach
program or mass media reached over 900,000 people and another 6.8 million people
were reached on other prevention strategies. Over 8,000 persons were trained on
providing prevention services and over 2,000 orphans or vulnerable children received
services.

In Haiti, both USAID and CDC play large, complimentary roles in the implementation of
the Emergency Plan wherein their individual roles are geared towards their comparative
advantages. It is not possible to disaggregate the results achieved by each without
redirecting considerable effort and resources away from the Emergency Plan team's
other implementation activities. The Country Operational Plan combines both USAID
and CDC-financed activities. For example, in establishing “CDC” antiretroviral treatment
centers, CDC finances the laboratory equipment, the medical expertise and the training
of lab technicians while USAID builds or renovates the infrastructure, supports demand
generation through social mobilization, and provides community-based wraparound
services such as food or other reproductive health activities. So even though the center
is considered a “CDC” center, USAID/Haiti contributed largely to the establishment of the
center.

We did not compare the partners’ results to the results described in the annual report to
Congress on the Emergency Plan because often the partners did not distinguish
between USAID- and CDC-funded activities in their reports.

Other Matters with Recommendations

Pressure for Immediate Results
ADS 300.2.1 states that accountability for results includes responding effectively to
changes in the development and policy environment that affect the feasibility of results.
The Emergency Plan is a goal-driven program that demands immediate results, and the
Emergency Plan team went immediately from planning its programs to implementation.
In order to meet the Emergency Plan targets, there was strong pressure to open
antiretroviral therapy centers and put patients on antiretroviral drugs. Meeting targets

                                                                                      14
drove the Emergency Plan program without responding to changes in the field that
affected the feasibility of results.

The supply of antiretroviral drugs did not keep pace with the opening of new
antiretroviral therapy centers and the enrollment of new antiretroviral therapy patients.
As was mentioned above, the in-country supply of antiretroviral drugs was at a crisis
level in 2005. The Emergency Plan team knew that the antiretroviral drug supply was a
problem, and yet it continued opening five new antiretroviral therapy centers in January,
February, and March 2005 in St-Antoine Hospital/Jeremie, Grace Children’s
Hospital/Port au Prince, St-Michel Hospital/Jacmel, Hospital de Mirebalais, and Beraca
Clinic/Port de Paix. Because of the antiretroviral drug crisis, all existing U.S.
government-supplied antiretroviral therapy centers were told in March 2005 not to enroll
new patients, and the antiretroviral therapy centers that were opened in 2005 were told
to place only a limited number of new patients on antiretroviral drug therapy.

In addition to the drug crisis, the Emergency Plan team did not have a sufficient supply
of HIV rapid tests due to the lack of a proper drug management and distribution system.
At least two PMTCT/VCT centers did not have enough HIV rapid tests to provide
pregnant women or the general population with HIV/AIDS testing. Rational
Pharmaceutical had 200 Capilus tests in stock at the time of the audit, and therefore,
PMTCT and VCT centers would not be able to continue to provide services unless more
rapid tests were purchased. The Emergency Plan involves a large amount of money and
accountability. The Emergency Plan team did not, however, have the commensurate
flexibility to respond to demand. USAID/Haiti had to comply with USAID regulations and
Federal laws and regulations regarding the hiring of employees, procurement, and
contracting. These actions could not happen overnight, yet the Emergency Plan targets
drove the program forward at a rapid pace.

The opening of new antiretroviral therapy centers was accompanied by a community
awareness campaign to promote the new centers and their services. By opening and
publicizing a new center that could treat only a severely limited number of patients, false
expectations were created which were then deflated when the new antiretroviral therapy
centers could not provide antiretroviral drugs to patients who qualified for treatment.
This occurred because of the pressure to meet the Emergency Plan target of opening 11
antiretroviral therapy centers. Meeting targets by opening antiretroviral therapy centers
was a hollow achievement when the new antiretroviral therapy centers could only
provide antiretroviral drugs to an extremely limited number of patients.

   Recommendation No. 5: We recommend that USAID/Haiti recommend to the
   Emergency Plan team that new antiretroviral therapy centers not be opened
   unless there are adequate drugs and other supplies available to enable a new
   antiretroviral therapy center to provide treatment to more than a limited number
   of patients.

Lack of an Implementation Plan
ADS 200.3.2.1 states that managing for results means to define and organize work
around end results USAID seeks to accomplish. This means making intended results
explicit; ensuring agreement among partners and stakeholders that proposed results are
worthwhile; and organizing day-to-day work and interactions to achieve results as


                                                                                        15
effectively as possible. Management Sciences developed an implementation plan for
the four antiretroviral sites in its network. However, implementation plans ensuring a
standard, complete implementation timeline were not prepared by the Emergency Plan
team for all Emergency Plan antiretroviral sites to ensure that personnel would be
trained prior to launching of new sites and to ensure that other pre-launch tasks were
performed in an orderly, sequenced manner. For example, Hospital St. Antoine’s
antiretroviral site was launched on February 1, 2005, but the statistician and the site
manager were not trained until March 2005. Further, the PMTCT counselor had not
been provided training as of April.

Without an implementation plan, the risk that objectives might not be accomplished
efficiently increased. There were efforts to coordinate the work of all partner
organizations, but there was not a comprehensive implementation plan for the
Emergency Plan that would have guided the team and all concerned agencies and
donors and that would have facilitated the monitoring and evaluation of program
implementation. This issue was reported not only by six partners but also by the HIV
Coordinating Committee of the Ministry of Health.

An implementation plan was not developed due to a lack of staff, an extremely heavy
workload due to Emergency Plan activities, a difficult operating environment that
included a mandatory evacuation, the pressure to implement the Emergency Plan
program immediately, and the pressure to produce immediate results. Without a well-
defined implementation plan, however, the Mission was not able to clearly plan,
coordinate, and monitor the implementation of the Emergency Plan program by the
various partner organizations. Due to a lack of an implementation plan, communication
with the partners often lacked clarity, and activities were not coordinated.

   Recommendation No. 6: We recommend that USAID/Haiti recommend to the
   Emergency Plan team that it develop an implementation plan that takes into
   account all the key participants, identifies risks and constraints, and puts forward
   a complete program implementation timeline, including site assessments, facility
   preparation, delivery and installation of equipment, sensitization campaigns,
   training of site personnel, monitoring, and evaluation.

Improved Fund Accountability
ADS 596.3.1 states that USAID managers and staff must develop and implement
appropriate, cost-effective management controls to ensure that assets are safeguarded
and revenues and expenditures are properly recorded and accounted for.           In this
regard, the USAID/Haiti financial management office did not have adequate financial
information on the centrally funded (also known as Field Support) Emergency Plan
projects implemented in Haiti. More specifically, even though USAID/Haiti was
responsible for monitoring and implementing the Emergency Plan, the Mission did not
have adequate financial information on U.S.-based organizations to ensure that the
funds were used for intended purposes only and properly accounted for. The mission
should coordinate with Single Act auditors, in order to determine whether the audit
coverage is sufficient and if not, arrange for additional coverage and conduct financial
reviews for these U.S.-based organizations implementing the Emergency Plan activities.




                                                                                          16
During FY 2004, the financial management office oversaw financial audits and
performed, with the assistance of private accounting firms, financial reviews of the locally
funded Emergency Plan partner organizations. However, the U.S.-based partner
organizations that were centrally funded were not included in these financial reviews
because USAID/Haiti was under the misconception that it could not conduct financial
reviews of centrally funded partner organizations. As a result, the risk of loss was
increased and the Mission could not ensure that funds were spent for intended purposes
only.

Our review of some of these organizations’ documentation, including audit reports on
two centrally funded organizations prepared by local accounting firms, identified several
internal control and compliance deficiencies: 1) an unreconciled difference between the
balance stated on the fund accountability statement and the actual cash on hand; ( 2) a
lack of compliance with the agreements’ terms concerning the method of allocating
commodities and indirect costs; and (3) a lack of supporting documentation in support of
travel and salary expenses. These same organizations received funding from USAID and
CDC as well as other donors to implement similar program activities under the Emergency
Plan and we were unable to obtain reasonable assurance that USAID funds were used for
intended purposes only and properly accounted for.

In order to ensure adequate fund oversight and accountability, we recommend that the
Financial Management office develop a plan to conduct financial reviews to ensure that
these organizations have acceptable financial management systems that control and
account for USAID funds.

   Recommendation No. 7: We recommend that USAID/Haiti coordinate with
   Single Act auditors, in order to determine whether the audit coverage is sufficient
   and if not, arrange for additional coverage and conduct financial reviews for
   these U.S.-based organizations implementing the Emergency Plan activities.

Other Matters without Recommendations
The following information is provided for informational purposes only.         We are not
making any recommendations.

Sustainability – While the emergency plan focuses on treatment and care, attention to
prevention would reduce the need for expensive treatment in the future and likely
enhance the program’s sustainability. USAID is concerned with sustainable interventions
being put in Haiti and can leverage investments in primary health care and food
programs to address the important health problems facing the country. More than 70
percent of the population lives below the poverty level and does not have enough food or
access to safe water and other health programs. Treatment interventions would need to
address these needs in order to be effective and would require enormous resources. It
would be important for the Presidential plan program elements to be better integrated
with USAID’s other health and food components to strengthen performance and improve
health outcomes.

The Emergency Plan program addressed sustainability issues by providing training to
counselors, pharmacists, nurses, and doctors. The Emergency Plan also supported
training of home health aides to perform routine follow-up and patient counseling for
adherence to drug regimens. Sustainability was also addressed through the

                                                                                         17
strengthening of physical infrastructure including building renovations, water and
electricity connections. The Emergency Plan also equipped laboratories and trained lab
technicians.

Because HIV/AIDS activities are more likely to be sustainable if they are integrated with
other services, USAID/Haiti co-located many PMTCT centers and four antiretroviral
therapy centers in clinics in Management Sciences’ network that provided general health
services. The new HIV/AIDS services were integrated with the clinics’ other programs.

While building up a trained work force reinforced sustainability, Management Sciences
and others providing training noted that there was a large turnover of trained personnel
at clinics. It was therefore necessary to provide on-going training for the new personnel.
Linkages stated that it paid for the transportation and lodging for people that attended its
training because not all the clinics could afford to pay these expenses.

The Emergency Plan is a five-year program, and it is intended to create a sustainable
HIV/AIDS treatment program in the targeted countries. Everyone to whom we spoke
told us that antiretroviral therapy is not sustainable in Haiti without outside assistance.
Haiti is the poorest country in the Western Hemisphere, and the patients cannot begin to
afford to pay for antiretroviral therapy. Virtually all the antiretroviral therapy being
provided in Haiti is provided by foreign governments and organizations from outside
Haiti. Given the depth of poverty in Haiti, it is not realistic to expect large-scale
antiretroviral therapy to continue without outside assistance.

Contract Ceilings – Contract ceilings were placing an additional burden on
USAID/Haiti. In FY 2004, USAID/Haiti bought into nine centrally-awarded contracts
and/or grants to support the Emergency Plan program. These centrally-awarded
contracts enabled USAID/Haiti to obtain services quicker than awarding a contract at the
mission level. At the time of our audit, the contracts with Population Services and Family
Health were at or near their contract ceilings, and the ceilings were not being increased.
Even though the Mission was satisfied with the services of these partners, due to the
contract ceiling, the Mission will have to spend valuable time and energy going through
the procurement process in order to award contracts itself. Without the limitation of the
contract ceilings, the Mission would be able to continue buying into the centrally-funded
contracts and/or grants.

The contract with Rational Pharmaceutical was also centrally-awarded, and it was also
subject to a contract ceiling. USAID/Haiti was purchasing drugs through Rational
Pharmaceutical, and this contract ceiling would have presented a problem in January
2005 if USAID/Haiti had obtained the early release of FY 2005 funds for the purchase of
drugs. As discussed elsewhere in this report, USAID/Haiti did not receive the FY 2005
funds until April 2005. In the same month, the contract ceiling for Rational
Pharmaceutical was increased thereby allowing USAID/Haiti to purchase drugs through
Rational Pharmaceutical.

Staffing and Transportation – The USAID/Haiti Population, Health and Nutrition (PHN)
team is operating under a great amount of stress. As shown in Table No. 1, the funds
managed by the PHN team, including Emergency Plan funds, increased from $22.1
million in 2002 to $53.7 million in 2005. Excluding the Emergency Plan, the PHN
program grew by 52 percent in three years, and including the Emergency Plan, it
increased by 143 percent. While PHN’s workload multiplied, the professional staff only

                                                                                         18
increased by 3 to a total of 10, with only two direct hires creating enormous pressures on
both the professional and administrative staff.

Table No. 1: Funds Managed by PHN

                                         Emergency Plan         Total Funds Managed
     Year          PHN Budget                Funds                     by PHN

 FY 2002            $22.1 million                                     $22.1 million
 FY 2003            $26.4 million                                     $26.4 million
 FY 2004            $31.5 million          $12.2 million              $43.7 million
 FY 2005            $33.6 million          $20.1 million              $53.7 million

The demands of the Emergency Plan stretched the PHN staff thin, leaving little time to
manage and monitor the programs. The Emergency Plan is a massive program that the
team had to implement immediately, and it therefore added a tremendous burden in FY
2004. The staff worked long hours for over a year, including weekends, in order to
implement the program and to meet the Emergency Plan targets. While the Emergency
Plan involved a tremendous amount of work, at the same time the USAID/Haiti PHN
team also had to manage its other population, health, and nutrition programs. Burnout
was a real danger at the current work level.

To complicate matters further, there was an ordered evacuation of all USDH and
USPSC employees in February 2004. The USAID/Haiti PHN Director returned after
approximately six weeks; the other USDH employee did not return until May 2004.

USAID/Haiti was addressing the staffing issue in PHN. In addition to the three positions
added to PHN in FY 2004, USAID/Haiti was in the process of adding four more positions
in PHN. These positions were (1) a senior USPSC for monitoring and evaluation, (2) a
senior USPSC for HIV/AIDS and infectious diseases coordination, (3) an FSN for the
behavior change communication program, and (4) a technical writer working only on the
Emergency Plan and other PHN programs. Additionally, at the time of field work, there
was a vacant FSN financial program assistant position which PHN planned to filled.

Getting to the sites to monitor activities was also a problem. Because of the security
situation in Haiti, trips outside the Port-au-Prince area were required to include at least
two lightly armored vehicles. Lightly armored vehicles were also required when going to
and from the USAID/Haiti office. PHN only had two vehicles, and when a PHN team
member went to a site, PHN had to rely on the availability of other vehicles in
USAID/Haiti’s motor pool. Other vehicles were not always available, thereby restricting
the ability of PHN team members to monitor activities and to attend meetings outside
USAID/Haiti’s office. PHN was in the process of issuing a purchase order for two lightly
armored vehicles. One of the current PHN vehicles was being replaced, so there will be
a net increase of one vehicle. PHN was considering the purchase of another vehicle to
increase the PHN motor pool to four vehicles.

Marking – USAID/Haiti and CDC Haiti were the primary implementers of the Emergency
Plan program in Haiti. Each agency had its own marking requirements and its own logo.
The Global AIDS Coordinator also had a logo and was encouraging the use of its logo
on equipment provided with Emergency Plan funds and at institutions receiving
Emergency Plan funds. To add to the multiplicity of logos, partner organizations added

                                                                                        19
their logos to materials that they developed, and materials produced for the Ministry of
Health also carried its logo. The Emergency Plan is an inter-agency program, and there
needed to be consistency in marking policies in order to avoid confusion. A protocol
needed to be developed that clearly set forth a marking policy.

Emergency Plan Fiscal Year – The Emergency Plan fiscal year runs for performance
measurement from April 1 to March 31, whereas the Emergency Plan fiscal year for
financial management runs from October 1 to September 30. Having different fiscal
years was confusing to partner organizations, and it added needless complication to the
Emergency Plan program.

Indicator Overload – The Global AIDS Coordinator indicators for Emergency Plan were
described in 94 pages. The number of indicators to be reported on, as well as the
number of reports to be submitted, created confusion, increased the workload, and
reduced program efficiency. Efforts should be made to reduce and simplify data
collection instruments and the number of indicators and to periodically evaluate
Emergency Plan performance indicators in order to ensure that all indicators are
necessary, relevant, and easily understood by all concerned.




                                                                                     20
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Haiti comments described some of the exceptional conditions in Haiti that made
it difficult to implement the Emergency Plan and also provided some suggestions for
future audits of Emergency Plan activities. USAID management concurred with the first
six of seven recommendations that are included in this report and decided to take
corrective measures in order to resolve the findings reported as well as to provide a plan
to address the recommendations. Accordingly, we consider management decisions to
have been reached on six of the seven recommendations.

With regard to the seventh recommendation, no management decision has been
reached while the recommendation has undergone minor modifications to better reflect
management’s views. Accordingly, we have restricted our recommendation to the
mission conducting financial reviews of some U.S.-based organizations if audit coverage
is not sufficient under the Single Act.




                                                                                       21
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. Fieldwork for this audit was
performed in Haiti from April 4 to 29, 2005, at USAID/Haiti and at various Emergency
Plan partner organization offices as well as at program sites.

This audit is one of a series of worldwide audits, and it was designed to answer the
following audit objectives: (1) How has USAID/Haiti participated in the President’s
Emergency Plan for AIDS Relief activities? (2) Did USAID/Haiti's HIV/AIDS activities
progress as expected towards planned outputs in their grants, cooperative agreements
and contracts? (3) Are USAID/Haiti's HIV/AIDS activities contributing to the overall U.S.
Government's Emergency Plan targets?

In planning and performing the audit, we reviewed and assessed the effectiveness of
USAID/Haiti’s management controls related to the Emergency Plan. The USAID/Haiti
management controls identified included the mission performance monitoring plan, the
Country Operational Plan, the Mission’s self assessment of management controls
through its Annual Federal Managers Financial Integrity Act, the Financial Management
Office Audit and Financial Review Plan, and the Portfolio Review. Interviews were
conducted with Mission officials, cognizant technical officers, and implementing partners.
A total of eight field visits to partner offices were conducted, five visits to antiretroviral
treatment centers and eight visits to Voluntary counseling testing/Prevention of mother to
child transmission/Orphans and vulnerable children clinics. In this regard, it should be
noted that USAID/Haiti awarded $4.8 million to an umbrella organization working with
more than 20 local partners as well as $6.1 million through centrally-funded awards.

We did not compare the partners’ results to the results described in the annual report to
Congress on the Emergency Plan because often the partners did not distinguish in their
reports between activities funded by USAID and activities funded by the U.S. Centers for
Disease Control and Prevention (CDC). Disaggregating the USAID-funded activities
from CDC-funded activities as reported in the partner progress reports was not possible.

Methodology
To answer audit objective one, we reviewed USAID/Haiti’s Country Operational Plan,
and interviewed Mission officials, managers, technical officers and implementing
partners. We interviewed representatives of the Global Fund, CDC, the Ministry of
Health, the HIV/AIDS Coordinating office, and the Peace Corps.

To answer audit objective two, we interviewed Mission officials and in-country partners
and reviewed partner work plans and progress reports to confirm progress reported
towards achieving planned outputs. We also conducted site visits, observed the
project’s operations and tested data described in the progress reports. Testing
consisted of reviewing the supporting documentation for selected months for selected
activities. For example, for selected training activities, we reviewed the attendance lists


                                                                                           22
                                                                           APPENDIX I

signed by the participants. Additionally, for selected months, we reviewed, among other
items, the number of persons reported as being tested for HIV/AIDS, the number that
were reported as testing positive, and the number of HIV-positive pregnant women
receiving treatment to prevent the transmission of the HIV virus to their babies. This
review consisted of comparing the monthly data reports submitted by clinics to
Management Sciences for Health to the information report to USAID/Haiti and testing
certain parts of this data during site visits to selected clinics. With regard to other
partners, during our field visits we verified the accuracy of the reported data by
comparing the laboratory register to the VCT/MTCT registers with respect to the number
of individuals tested and the number of individuals testing HIV+. We also compared the
number of tests performed by the laboratory to the monthly reports produced for the
Emergency Plan.

To answer audit objective three, we reviewed the Emergency Plan Team’s annual
report, and reviewed the progress reports of implementing partners to compare planned
outputs with progress. We conducted 13 site visits to meet with partners and
beneficiaries involved in prevention, care, and treatment. We also observed the
operation of facilities.

A materiality threshold was not established for this audit, as it was not considered to be
applicable given the qualitative nature of the audit objectives, which focused on
USAID/Haiti’s participation, progress and contribution to the overall U.S. Government's
Emergency Plan targets.




                                                                                       23
                                                                            APPENDIX II



MANAGEMENT COMMENTS
July 15, 2005

Pamela Callen, Acting Mission Director USAID/Haiti

Management Comments on the RIG Draft Audit Report No. 1-521-05-0XX-P.

Timothy E. Cox, Regional Inspector General (RIG/San Salvador)

I am pleased to send you the USAID/Haiti response to the recent audit of the Mission’s
contribution to the PEPFAR/Haiti program. I realize this was a very labor-intensive and
time-consuming effort for your auditors and my own staff. We appreciated their openness
and collaborative working style during the exercise.

I might make one suggestion to the RIG for future audits. The audit team did their best to
review the kilos of background documents the Mission sent in advance of the trip and
become familiar with the complex PEPFAR program. This continued to take up a great
deal of time and effort of the audit team itself and the Haiti PHN office, and several days
of potential field visits were spent learning about basic PEPFAR issues. Soon after
arriving in Haiti they realized that PEPFAR is much more complicated and intricate than
they had understood, and the RIG was forced to both extend their stay in Haiti and add a
third auditor to their team to manage the volume and complexity of the audit. Given that
the IG had already audited other PEPFAR countries and several IG auditors had become
familiar with the details of the worldwide PEPFAR program, it would have been very
helpful to have at least one IG staff member who had already participated in at least one
of these audits participate as a member of the PEPFAR/Haiti audit team.

After working with the PEPFAR program for two years it has become apparent to us that
the high degree of integration and interdependence of the several USG agency
interventions under PEPFAR call for a program-wide assessment, rather than single-
agency audits, to provide truly meaningful information for improving strategic
management of the overall USG response to the epidemic. At many times during the
Haiti audit it was clear that key pieces of the program, those under the responsibility of
CDC, were missing and would have completed the picture if included in the same overall
report. I will look forward to this more holistic view in the future.

This memorandum constitutes USAID/Haiti’s response to the Regional Inspector General
(RIG) Draft Audit on USAID/Haiti’s Implementation of the President’s Emergency Plan
for HIV/AIDS Relief (Report No. 1-521-05-0XX-P)

General Comments:

After completing the review of the Draft Audit Report, the Mission has some specific
comments to make regarding the Background and Environment section of the report
which are summarized as follows:


                                                                                        24
                                                                             APPENDIX II




It is critical to provide a complete picture of the overall PEPFAR initiative, management
structure, and approach to technical direction. It is also critical to understanding the
PEPFAR/Haiti program that the reader understands the integrated nature of the initiative
as a consolidated USG program. Following the strong directive from the White House,
results are defined by country program, not by individual agency. And targets are not
disaggregated by agency contribution. Focusing on these types of divisions undermines
the unified program PEPFAR/Haiti is working hard to create. It is also important to fully
understand the security and working environment in Haiti during 2004 and 2005. Chronic
instability and violence had a major impact on the ability of the USG and partners to
accomplish even basic tasks.

PEPFAR worldwide overview. The President’s Emergency Plan for AIDS Relief
(PEPFAR) is a $15 billion, five-year program to combat HIV/AIDS worldwide, with
emphasis on 15 focus countries. It provides $9 billion in new funding to speed up
prevention, treatment and care services. PEPFAR also allocates $5 billion over five years
to bilateral programs in more than 100 countries and increases the U.S. pledge to the
                                                 4
Global Fund for AIDS Tuberculosis and Malaria (GFATM) by $1 billion over five years.
The worldwide goal over five years is to provide treatment to 2 million HIV-infected
people, prevent 7 million new HIV infections, and provide care and support to 10 million
people affected by HIV/AIDS, including patients and orphans. In Haiti, the goal is to
provide treatment to 25,000 HIV-infected people, prevent 122,307 HIV infections, and
provide quality care and support services to 125,000 persons who are infected and/or
affected by HIV/AIDS. Haiti’s 2004 PEPFAR budget was roughly $22 million and was
shared evenly between USAID and the Department of Health and Human Services
(HSS), mostly to CDC. The ambitious short-term PEPFAR program goals present
specific challenges to creating sustainable in-country implementation capacity and
leadership, objectives normally requiring longer-term engagement.

The Administration has made clear to all participating U.S. Government (USG) agencies
that PEPFAR shall be implemented, managed, and evaluated as a single unified program,
and that employees from specific agencies are to “leave your uniforms at the door” when
discussing the program. Isolated, agency-specific strategies, ‘branding’ of activities, or
reporting have been strongly discouraged by PEPFAR senior leadership, and all program
interventions are referred to simply as PEPFAR. PEPFAR/Haiti is implemented jointly
by USAID and CDC and supports Haiti’s national response to the epidemic. The
comprehensive program depends on both USG agencies planning, designing,
implementing, monitoring and reporting on joint results. This combined technical group
is commonly referred to by partners simply as the USG Team. While each agency
manages separate resource streams for tracking funds to awardees, the program
components are completely interdependent. The only reportable targets are consolidated
country-level results, so that if one agency fails to produce critical inputs, the other will


4 The Global Fund is a partnership among governments, civil society, the private sector and
affected communities that raises money to fight AIDS, tuberculosis and malaria.


                                                                                          25
                                                                            APPENDIX II

also not succeed. The key to PEPFAR’s success or failure as a USG program will be the
effectiveness of coordination among USG agencies for unified response. Therefore,
since this audit covered performance by USAID only, it provides a distinctly incomplete
picture of PEPFAR program and its impact in Haiti. In order to generate a meaningful
assessment of results achieved in Haiti’s increasingly insecure environment it will be
necessary to audit the entire program and the coordinated inputs of all participating
agencies.

PEPFAR planning and direction is highly centralized in the newly created Office of the
Global AIDS Coordinator (OGAC) in Washington. Specific technical program areas,
budgets, performance measures and reporting systems and to a large extent, choice of
implementing partners, are strongly guided by OGAC. OGAC has mandated a
standardized annual country operational plan (COP) from each of the 15 focus countries
as a perquisite for annual funding. The annual funding request is submitted to OGAC
according to a fixed schedule through the COP, describing activities to be carried out and
results to be achieved for the funds available for that country. Annual schedules for the
COP, actual funds disbursements and reporting cycles do not allow for lengthy
implementation periods or drawing lessons learned from one year’s programming before
the plan for the next year must be developed and submitted. The submission deadline for
COP for 2004 to OGAC was June 2004, with funds disbursed to USAID/Haiti in August
2004. Some implementing partners received their 2004 funds in September 2004, while
USAID and the USG/Haiti team was required to submit their semi-annual progress report
for 2004 in October for the period ending September. The annual report for 2004 was
required in March 2005. Literally weeks after many partners began implementing
activities for 2004, USAID and CDC were required to submit the COP for 2005 in
November 2004. This will not allow for highly informed improvements in program
design or monitoring from one year to the next, and kept the USG team very busy in an
extended and labor-intensive planning exercise for much of the year.

The PEPFAR program also receives an extreme degree of scrutiny from Congress and
OGAC, and has required regular reporting against an extensive list of over 120 specific
performance indicators for standardized reporting from each PEPFAR country. This 96-
page list of indicators, definitions of key measurement issues, and reporting formats have
continued to evolve over the first 24 months of the PEPFAR initiative. Some of these
indicators represent special interest areas for Congress or the US Government as a whole,
and are not immediately relevant decision-making for PEPFAR to field operations. This
has presented challenges to focus countries to establish reliable data gathering and
analysis structures for the level of detail required. PEPFAR results are measured for the
country level across all agencies, and as a single USG program, and it is therefore not
relevant to disaggregate these targets by USG agency.

Haiti environment: The working environment in Haiti in 2004 and 2005 was
characterized by chronic and extreme insecurity, civil unrest, and limited travel within the
country. Haiti’s elected president was forced from office in early 2004 and Haiti became
progressively more unstable due to gang violence and threats from various armed para-
military factions. Most American staff from USAID and CDC were evacuated from Haiti
in February 2004 and remained outside the country at least two months. The now far-


                                                                                         26
                                                                             APPENDIX II

flung USG Haiti team continued to develop the 2004 COP by email and telephone, with
only one specially arranged face-to-face working session in Washington with OGAC
colleagues and staff in Haiti participating by phone. The USG team eventually submitted
the 2004 COP on time to OGAC, with no allowances or special consideration fro the
extreme difficulty of operating in Haiti during this time.

For the remainder of this year, routine work in the USAID offices was frequently
disrupted by violence in surrounding streets and inability to move freely about the city.
Important meetings and working sessions dealing with PEPFAR often needed to be
moved to safer locations in the capital, including certain partner offices and larger hotels,
to ensure key participants would be able to attend and the discussions would not be
curtailed by orders to leave the building due to rumors of further violence. For several
weeks, the combined USG team held technical PEPFAR COP design meetings in rented
hotel space to ensure uninterrupted working sessions. A critical PEPAFR planning
meeting with the MOH and over 30 key Haitian partners was moved from Haiti to Miami
due to rising insecurity and potential for disruption in Port au Prince. Several USAID
staff have been attacked or car-jacked en route to and from the USAID office. All of this
was extremely disruptive to program design and management, and severely hampered the
ability of the team to develop a seamless and coherent program for 2005 and effectively
manage the ongoing program. As this report goes to press, violence and insecurity
continues to worsen in Haiti and working conditions for USG and other partners are
becoming progressively more difficult. Many Haitian professionals have already left
Haiti for more stable lives elsewhere.

Prior USAID investments in the health sector. It is important to note that PEPFAR
arrived in Haiti after many years of investment by USAID in health and other sectors.
The narrow parameters of allowable PEPFAR activities therefore are constructed on this
base of essential health services and management capacity. Basic services upon which
PEPFAR activities are designed include prenatal care and reproductive health services,
all basic clinical care and laboratory capacity (much of USAID’s prior investment was
geared toward malaria and tuberculosis control), and an extensive network of
community-based and outreach services for child health and family health promotion.
USAID had also invested significant resources in management and other public health
skills training for NGO and MOH staff. The ongoing USAID non-PEPFAR health
portfolio in 2004 amounted to roughly $20 million, and provided direct services through
over 100 clinics nationwide, plus targeted institutional capacity building to the MOH and
NGOs. Without these extensive and ongoing investments, PEPFAR would have been
required to expend considerable additional resources to accomplish the results from the
2004 COP.

Within this program, over 30 USAID-funded NGOs were mandated to initiate HIV
testing and counseling services, along with activities to prevent mother to child
transmission of HIV, beginning in late fiscal year 2003. The PEPFAR 2004 COP
continued the approach to integrate these activities into routine health services. Other
HIV prevention and behavior change activities had been ongoing through the USAID
program for over 10 years. Since HIV testing and clinical care only began in earnest in
Haiti in 2003. USAID’s community health program provided an integrated package of


                                                                                          27
                                                                            APPENDIX II

services in one location, including childhood vaccinations, treatment for diarrhea,
screening for sexually transmitted infections, and screening for tuberculosis. This
integrated approach was designed to encourage people to come to the centers without fear
that other people would know that they had HIV/AIDS. MSH also tried to co-locate the
centers near food programs because if there were a cluster of services in one area, more
people would come to the clinic for voluntary counseling and testing and PMTCT
services.

In addition, the USAID/Haiti Title II food security program provides critical nutritional
inputs to address malnutrition and poverty among Haiti’s most vulnerable groups—
pregnant women and their children. There are over 800 food distribution points around
the country that serve as a magnet for identifying and integrating health services. As with
other basic development interventions, years of USAID/Haiti investment and support to
Haiti’s fragile social sector are now strongly supporting the success of PEPFAR to
exceed most of its targets.

PEPFAR is a five-year program, and it is intended to rapidly create HIV/AIDS treatment
programs in focus countries. All people interviewed in Haiti felt that antiretroviral
therapy is not sustainable in Haiti without outside assistance. Haiti is the poorest country
in the Western Hemisphere, and the patients cannot begin to afford to pay for
antiretroviral therapy. Virtually all the antiretroviral therapy being provided in Haiti is
provided by foreign governments and organizations from outside Haiti. Given the depth
of poverty in Haiti, it is not realistic to expect large-scale antiretroviral therapy to
continue without outside assistance.

Specific PEPFAR/Haiti background. USAID and CDC are the primary USG agencies
implementing PEPFAR in Haiti, and coordinate closely on action planning and overall
program decisions. But the two agencies follow distinctly different program management
approaches. USAID is an overseas sustainable development agency, and conducts long-
term integrated programs, usually through host country and international NGO
implementers. Procurement and program management are highly decentralized in country
missions. CDC is a primarily a domestic agency and conducts its work through a large
cadre of direct-hire technical staff. Procurement and grant-making are centralized in
Atlanta.

These different organizational cultures presented continuing challenges for the USG team
to capitalize on the relative strengths and comparative advantages of each agency. By
agreement of the joint USG team, USAID was the lead agency for orphans and
vulnerable children (OVCs), palliative care, prevention, and drug logistics. CDC was the
lead agency for data management, laboratory services and clinical transmission (blood
safety and injection safety). Both agencies jointly managed ARV clinical care. Both
funded the same implementing agencies to carry out similar activities under the COP
2004. This caused confusion among those partners and did not noticeably increase the
quality or speed of implementation. Overall in-country leadership and coordination of
PEPFAR rests with the USG Chief of Mission. Unfortunately, the embassy staff was
completely absorbed by the worsening political and security crisis in Haiti throughout
2004. CDC and USAID were largely left to design and manage the program on their own.


                                                                                         28
                                                                            APPENDIX II

Several other PEPFAR focus countries have assigned a senior-level PEPFAR Country
Coordinator to oversee and arbitrate between agencies when consensus cannot be
reached. The USG Haiti team had not opted for this staffing strategy as of this audit.

USAID specific management background:

Contract ceilings on USAID implementing mechanisms also placed an unnecessary
additional burden on USAID/Haiti. In FY 2004, USAID/Haiti bought into nine centrally-
awarded contracts to support the PEPFAR program. These centrally-awarded contracts
enabled USAID/Haiti to obtain services more quickly and easily than awarding a contract
at the mission level. At the time of our audit, the contracts with PSI and FHI were at or
near their contract ceilings, and the ceilings were not being increased. Even though the
Mission was satisfied with the services of these partners, due to the contract ceiling, the
Mission will have to spend valuable time and energy going through the procurement
process in order to award contracts itself. Without the limitation of the contract ceilings,
the Mission would be able to continue buying into the centrally-funded contracts.

Staffing and Transportation – The USAID/Haiti Population, Health and Nutrition (PHN)
team is operating under a great amount of stress. The funds managed by the PHN team,
including PEPFAR funds, increased from $22.1 million in 2002 to $53.7 million in 2005.
Excluding PEPFAR, the PHN program grew by 52 percent in three years, and including
the PEPFAR, it increased by 143 percent. While PHN’s workload multiplied, the
professional staff only increased by 3 to a total of 10, with only two direct hires creating
enormous pressures on both the professional and administrative staff.

The demands of PEPFAR stretched the PHN staff thin, leaving little time to manage and
monitor the programs. The PEPFAR is a massive program that the team had to
implement immediately, and it therefore added a tremendous management burden in FY
2004. The staff worked long hours for over a year, including weekends, in order to
implement the program and to meet the PEPFAR targets. While the PEPFAR involved a
tremendous amount of work, at the same time the USAID/Haiti PHN team also had to
manage its other population, health, and nutrition programs. Burnout is a real danger at
the current work level.

USAID/Haiti was addressing the staffing issue in PHN. In addition to the three positions
added to PHN in FY 2004, USAID/Haiti was in the process of adding four more positions
in PHN. These positions were (1) a senior USPSC for monitoring and evaluation, (2) a
senior USPSC for HIV/AIDS and infectious diseases coordination, (3) an FSN for the
behavior change communication program, and (4) a technical writer working only on the
PEPFAR and other PHN programs. Additionally, at the time of field work, there was a
vacant FSN financial program assistant position which PHN planned to fill.

Travel to PEPFAR sites to monitor activities was a problem. Because of the security
situation in Haiti, trips outside the Port-au-Prince area were required to include at least
two lightly armored vehicles. Lightly armored vehicles were also required when going to
and from the USAID/Haiti office. PHN only had two vehicles, and when a PHN team
member went to a site, PHN had to rely on the availability of other vehicles in


                                                                                         29
                                                                            APPENDIX II

USAID/Haiti’s motor pool. Other vehicles were not always available, thereby restricting
the ability of PHN team members to monitor activities and to attend meetings outside
USAID/Haiti’s office. PHN was in the process of issuing a purchase order for two lightly
armored vehicles. One of the current PHN vehicles was being replaced, so there will be a
net increase of one vehicle. PHN was considering the purchase of another vehicle to
increase the PHN motor pool to four vehicles.

USAID/Haiti Responses to Specific Recommendations:

Recommendation No. 1: We recommend that USAID/Haiti (a) make a determination as
to whether or not to implement the drug management software provided by Rational
Pharmaceutical Management Plus, and (b) if it decides to implement the software, set a
schedule for the implementing the software and a plan for providing support to the users
of the software.

Mission response to recommendation No. 1:

USAID/Haiti has decided to continue implementation of the RPM+ drug management
software. Specific deliverables and performance schedule are being updated in the 2005
PEPFAR detailed action plan.

ARV Drug management issues:

USAID was charged with procurement and management of ARV drugs for all PEPFAR
sites, as well as direct operational support to four ARV treatment sites. In early 2005, the
PEPFAR program was faced with an ARV drug crisis, though this later became apparent
as an artificially generated situation.

ARV drugs were budgeted in sufficient quantities in 2004 by PEPFAR/Haiti, the Global
Fund and sub-recipients, and Haiti Track 1.0 recipient CRS Consortium to ensure
uninterrupted care for more patients than the annual PEPFAR target of 3,800 by March
2005. Global Fund counterparts repeatedly assured USAID/Haiti staff that ARV supply
was not a problem, as Haiti’s Global Fund budget included ARVs for 3,650 patients that
year through GHESKIO, Partners in Health (PIH) and the Albert Schweitzer Hospital
(HAS in French). In addition, PEPFAR/Haiti had purchased drugs for 1,500 patients and
the CRS Consortium had received funds from OGAC to directly treat 900 ARV patients.

In February 2004, GHESKIO made an emergency request to PEPFAR for ARV drugs,
not stating that the organization had sufficient budget from the Global Fund to purchase
drugs for all the patients they would treat that year (up to 1,500 patients), and that their
stock crisis was a result of administrative process, rather than a permanent obstacle. The
USG Team acted quickly to assist GHESKIO based on information available, but soon
learned that this initial crisis was in fact artificial. By November 2004, it was clear that
these other sources of ARV drugs were not fulfilling their engagements and ARV stocks
actually delivered by all partners would not cover the caseload. There would be serious
stock-outs by April 2005.



                                                                                         30
                                                                              APPENDIX II

In December 2004, USAID/Haiti received approval from OGAC for early disbursement
of COP 2005 funds to initiate ARV purchases in January 2005, and ensure delivery in
Haiti before in-country stocks would expire in April 2005. While waiting for these funds
to be released from OGAC to USAID and the drugs to be ordered, GHESKIO and other
treatment sites slowed recruitment of new patients considerably to remain within
available drug supplies.

As time passed, USAID/Haiti discovered that other partners funding ARVs had not
completely fulfilled their procurement engagements, and PEPFAR/Haiti supplies were
being expended much faster than anticipated. The USG team has taken steps to ensure
more transparent inventory management and procurement collaboration to improve the
collective efficiency of the ARV program in the future. The USG will soon sign an MOU
with the Global Fund and MOH to formalize this cooperation.

Logistics and tracking. The forecasting and distribution of HIV rapid tests, lab equipment
and other materials under the responsibility of CDC were not included in the scope of
work of the drug management partner RPM+. RPM+ attempted to assist the CDC in
storage and delivery of large amounts of non-expendable property on an ad hoc basis to
prepare sites for service launch. No clear and concrete procurement or distribution plan
for these materials was available in advance of delivery requirements, and requests
generally arrived to RPM+ at the last minute for urgent action, requiring re-programming
of staff and assets. Attempts by RPM+ to help with management of these stocks and
other ad hoc materials delivery for the CDC proved problematic and seriously detracted
from their ability to focus on their primary tasks and program deliverables, notably the
roll-out of the computerized drug tracking system.

Recommendation No. 2: We recommend that USAID/Haiti include clearly
defined planned outputs, with completion dates, for all activities in the partners’
work plans.

Mission response to recommendation No. 2:

USAID/Haiti agrees completely with this recommendation, and had already developed a
new planning and monitoring approach based on experiences from 2004 by the time of
the audit. The Mission has developed a simple action planning template and monitoring
methodology to greatly improve and simplify program monitoring for specific contractors
and grantees, as well as tracking of progress towards program results, for 2005. The
template closely resembles action plans previously developed by PEPFAR partners and is
simple to complete. The Excel-based format includes basic information on each activity
to identify the geographic location, estimated cost and expended funds, specific
deliverable expected for that activity (for example, 100 nurses trained in HIV
counseling), the date by which the activity is to be completed, the PEPFAR results
indicator to which the activity contributes and quantitative contribution (if this direct link
is feasible), and the persons responsible for that activity within the contractor/grantee
organization and on the USAID/CDC team.




                                                                                           31
                                                                            APPENDIX II

The USG team, lead by USAID, has conducted several technical workshops with all
PEPFAR partners and MOH counterparts to introduce this planning and monitoring
format, and has held separate working sessions with each partner to ensure they fully
understand the exercise and complete the form correctly. All partners have submitted
their COP2005 action plans in this format as of July 2005. Due to continued extreme
insecurity in Haiti and implementation difficulties, all these plans are being updated for
contingencies and activities prioritized together with USG staff. USAID and CDC
technical staff will conduct a rapid review of all planned activities for each partner each
month, noting which activities planned for that month are completed, estimated funds
actually expended on each activity, and actual achievement against planned deliverables
(20 nurses trained in counseling compared to 25 planned, for example). Reporting data
will be verified by field visits to the extent possible. This system will help USAID and
CDC remain focused on essential program elements and provide a clear and
unambiguous reporting exercise for partners.

Because the template is Excel based, the action plans are easily aggregated into a single
consolidated PEPFAR plan for Haiti. This overall plan can be quickly analyzed and
generate reports on funds budgeted and expended for any category of activities for any
given time during the year (extract an overall training plan and budget, with fund
pipeline, for example). If the simple information is correctly updated each month, the
template will easily generate reports on achievement of deliverables for each contractor
or grantee, greatly facilitating more focused and concrete performance monitoring.

USAID/Haiti is confident this simple system will help keep technical staff and partners
focused on essential program monitoring elements and provide a formal, completely
transparent performance record of the PEPFAR program. Partners and Ministry of Health
counterparts are enthusiastic about this new approach.

Recommendation No. 3: We recommend that USAID/Haiti (a) develop and disseminate
to partner organizations a table or annex template that facilitates performance reporting
and includes clearly-defined progress indicators; (b) provide partner organizations with
training such that the partners are able to accurately report on their performance, and (c)
recommend to the Emergency Plan team that this be done for all Emergency Plan partner
organizations.

Mission response to recommendation No. 3:

USAID/Haiti agrees with this recommendation, though wishes to point out that by
agreement of the joint USG team; the CDC was given primary responsibility for
developing and managing the overall monitoring and evaluation component of the
PEPFAR/Haiti program. All resources and level of effort for M&E were budgeted under
CDC for 2004 and 2005. That said, this issue is partly resolved by implementation of the
new action planning and monitoring system described under Recommendation No 2.




                                                                                        32
                                                                             APPENDIX II

Recommendation No. 4: We recommend that USAID/Haiti (a) develop a monitoring
and evaluation plan that includes evaluating each partner’s progress towards meeting
Emergency Plan objectives such that accurate and complete program implementation
information is ensured and to facilitate timely interventions to improve program results,
and (b) recommend to the Emergency Plan team that it develop a similar monitoring and
evaluation plan for all Emergency Plan partners.

Mission response to recommendation No. 4:

As with recommendation No. 3, the M&E component was the task of CDC under the
PEPFAR/Haiti program.

For process measures, the Mission agrees with the need to monitor performance of each
contractor, and measure progress against deliverables and indicators. Achievement of
planned deliverables is tracked in the systems described under Recommendation No. 2.
Those partner activities that can be directly linked to overall PEPFAR country-level
indicators are linked to those indicators in this same action planning template, and
quantifiable progress can be easily tracked. For example, a specific activity to train health
workers in prevention of mother to child transmission will directly support the official
indicator “Number of health workers newly trained or retrained in the provision of
PMTCT services”. However, most PEPFAR indicators measure higher-level
achievements like numbers of people actually receiving a specific type of treatment.
These results require multiple inputs (staff trained, equipment installed, drugs delivered,
community education completed, etc) and it is misleading to try to quantify the
contribution towards this indicator of any one of these sub-activities, which are carried
out by different partners.

Recommendation No. 5: We recommend that USAID/Haiti recommend to the
Emergency Plan team that new antiretroviral therapy centers not be opened unless there
are adequate drugs and other supplies available to enable a new antiretroviral therapy
center to provide treatment to more than a limited number of patients.

Mission comments to recommendation No. 5:

USAID/Haiti agrees that scale-up of services must not move faster than the ability of the
program to ensure that those services will be delivered at an acceptable quality standard,
and without interruption. Placing new patients on anti-retroviral drugs certainly requires a
stable and uninterrupted supply of medication for each new patient recruited. However,
the supply and clinical service situation in 2004 was much more complicated than the
drug supply chain only. USAID and CDC had obtained assurances that drugs would be
available in sufficient quantities to continue expanding services, both from PEPFAR and
the Global Fund, and so continued to open planned new sites with limited patient
numbers until March 2005. No patients missed a day of treatment during this time.
Critical factors for placing new patients on treatment include ARV drug supply, the fixed
investment in establishing clinical treatment and laboratory capacity, and clinical skills
and experience of health workers.



                                                                                          33
                                                                            APPENDIX II




First, ARV drugs were budgeted in sufficient quantities in 2004 by PEPFAR/Haiti, the
Global Fund and sub-recipients, and Haiti Track 1.0 recipient CRS Consortium to ensure
uninterrupted care for more patients than the annual PEPFAR target of 3,800 by March
2005. Global Fund counterparts repeatedly assured USAID/Haiti staff that ARV supply
was not a problem, as Haiti’s Global Fund budget included ARVs for 3,650 patients that
year through GHESKIO, Partners in Health (PIH) and the Albert Schweitzer Hospital
(HAS in French). In addition, PEPFAR/Haiti had purchased drugs for 1,500 patients and
the CRS Consortium had received funds from OGAC to directly treat 900 ARV patients.
By November 2004, it was clear that these other sources of ARV drugs were not fulfilling
their engagements and ARV stocks actually delivered by all partners would not cover the
caseload. There would be serious stock-outs by April 2005. In December 2004,
USAID/Haiti received approval from OGAC for early disbursement of COP 2005 funds
to initiate ARV purchases in January 2005, and ensure delivery in Haiti before in-country
stocks would expire in April 2005. While waiting for these funds to be released from
OGAC to USAID and the drugs to be ordered, GHESKIO and other treatment sites
slowed recruitment of new patients considerably to remain within available drug supplies.
As time passed, USAID/Haiti discovered that other partners funding ARVs had not
completely fulfilled their procurement engagements, and PEPFAR/Haiti supplies were
being expended much faster than anticipated.

Second, a major element in the decision to launch new sites, despite limited availability
of ARV drugs, was he fixed investment and considerable required to prepare a new site,
regardless of the initial patient load. Launching ARV services at a new clinical site
requires roughly the same level of time, effort and infrastructure whether the clinic will
initially treat 10 patients or 100. Clinical and other staff must be trained Minimum
equipment and furniture must be installed for laboratory and clinical services, and at least
some degree of minor renovations is usually necessary to establish confidential
counseling and treatment spaces. Even beginning with a small number of patients, these
new sites would be positioned to rapidly expand their caseload once drugs were more
available. The clinicians at these sites would have improved their new clinical skills and
familiarity with the treatment regimens and patient management. Other support staff in
the clinic will have become more familiar managing drug supplies, reporting and patient
records, outreach and adherence monitoring, and other key services. Waiting until all
drugs were available for the ultimate target patient numbers would have caused
unnecessary delays at that later date.

As noted elsewhere in the audit report, there is enormous pressure from the
Administration and OGAC for PEPFAR focus countries to reach their centrally imposed
country targets. This pressure serves as the backdrop for virtually everything that happens
in the Haiti program. Were this period in PEPFAR/Haiti’s history to be repeated, the
team would probably decide again to open these new treatment sites in order to position
them for rapid scale-up upon delivery of additional ARV drugs. USAID/Haiti staff would
ensure more active forecasting of needs and projected ARV deliveries by all partners to
apply pressure to respect procurement engagements.



                                                                                         34
                                                                            APPENDIX II




Recommendation No. 6: We recommend that USAID/Haiti recommend to the
Emergency Plan team that it develop an implementation plan that takes into account all
the key participants, identifies risks and constraints, and puts forward a complete program
implementation timeline, including site assessments, facility preparation, delivery and
installation of equipment, sensitization campaigns, training of site personnel, monitoring,
and evaluation.

Mission comments to recommendation No. 6:

Mission agrees with this recommendation. All of these elements are included in the
action planning exercise described under Recommendation No. 2.

That the USAID/Haiti PEPFAR audit is unable to make recommendations directly to the
overall PEPFAR/Haiti program, as in recommendations No. 5 and No. 6, supports
USAID’s opinion that an audit or evaluation of only one agency under the integrated
USG PEPFAR/Haiti program does not generate complete and meaningful management
recommendations for decision-making.

Recommendation No. 7: We recommend that USAID/Haiti include centrally-funded
partner organizations in its monitoring plans and develop a plan to conduct financial
reviews of these organizations to ensure that their offices in Haiti have acceptable
financial management systems that control and account for USAID funds.

Mission comments to recommendation No. 7:

The USAID/Washington Office of Procurement has made very clear to country missions
that no reporting or performance requirements shall be imposed on centrally funded and
managed contracts or agreements in addition to those already negotiated in their legal
agreements with USAID. The Cognizant Technical Officers (CTOs) for these agreements
are based in USAID/Washington, and country mission technical officers have no
authority to make direct requests or give directives to these partners. USAID/Haiti is
therefore not authorized to require any special financial review or reporting from any of
these centrally-managed partners. However, the Haiti PHN office has begun to receive
minimal quarterly financial updates from all field support partners. This report shows
only three numbers; the total amount received from USAID/Haiti, the estimated
expenditures from the quarter, and estimated expenditures for the following quarter. The
Mission will not ask for more information than this, and any partner may choose not to
furnish this report. This information provides a rough informal quarterly pipeline for the
overall PHN portfolio. The Mission will place more emphasis on the action plan and
monitoring tool described under Recommendation No. 2 above for program management.

In closing, USAID/Haiti would again like to express its appreciation for the manner in
which the audit was conducted and the usefulness of some of the recommendations
contained therein.



                                                                                        35
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
